                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS                                      -

                                              CLOSEOUT hXEPdTOMP$DUNI

 Case Number: A07120063
                                                                                      11      ,        Page 1 of 1




                  NSF OIG received an allegation that an NSF proposal,' submitted by a PI^ and two Co-
          PIS,^ contained plagiarism. Our inquiry determined that the PI was alone respoksible for the
          alleged plagiarism.                                                           11

                 We referred the matter to the ~ n i v e r s i t ~The
                                                                   . ~ University concluded, based on a
                                                                                               Ib
         preponderance of the evidence, that the PI intentionally and knowingly committed plagiarism,
         deemed a significant departure fiom accepted practices. ~ h University
                                                                             k          required the PI to submit
         his work to University officials for plagiarism review for 3 years; to complete ah ethics course; to
                                                                                                !I
         notify the University at which he wrote his dissertation and a journal editor of an       article he wrote
         that both contained plagiarism; and to be made aware that any future miscondudt will result in
         dismissal from the University.
                                                                                               I
                 We concurred with the University report and concluded, based on a preponderance of the

                                                                                               1
          evidence, that the PI knowingly plagiarized, which we deemed a significant departure from
          accepted practices.

                We recommended that NSF: 1) make a finding of research misconduct against the PI;
         2) send the PI a letter of reprimand; 3) require certifications fiom the PI for a pdriod of 2 years;
                                                                                             81
         4) require assurances fiom a responsible official of the PI'S employer for a period of 2 years; and
         5) require certification of attending an ethics class within 1 year. The Deputy Director accepted
                                                                                               I
                                                                                               l
         our recommendations.

                  This memo, the attached Report of Investigation, and the Deputy Direct?rYsletter
          constitute the case closeout. Accordingly, this case is closed.
                                                                                               i




                                                                                                   1
NSF OIG Form 2 (1 1/02)                                                                            I


                                                                                               -   5
                                            NATIONALSCIENCE FOLINDATION
                                                4201 WILSON BOULEVARD
                                               ARLINGTON, VIRGINIA 22230




                                                                                      .   I!

           OFFICE OF THE
          DEPUTY DIRECTOR
                                               JuL 2 9 2009



        CERTIFIED MAIL --RETURN RECEIPT REOUESTED                                         1b



                                                                                           I/

                   Re:    Notice of Research Misconduct Determination

    Dear-
                   In 2007, you submitted a proposal to the National Science Foundation    SF") entitled,
1 - (                          As documented in the attached Investigative ~ e p o prepared
                                                                                    k       by
    NSFVs.Officeof Inspector General ("OIG"), this proposal contained plagiarized iext and
    embedded references.
             I/
    Research Misconduct and Proposed Sanctions
                                                                                               I
             Under NSF's regulations, "research misconduct" is defined as "fabricatidn, falsification, or
    plagiarism in proposing or performing research funded by NSF ..." 45 CFR 8 689.1(a). NSF
    defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
    without giving appropriate credit." 45 CFR 4 689.l(a)(3). A finding of research misconduct
          Il
    require. that:


                       community; and                                                          i
                   (1) There be a significant departure fiom accepted practices of t h e relevant research

                                                                                               I
                   (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
              1/ (3) The allegation be proven by a preponderance of evidence.
                                    '   _


              ;I
    45 CFR 4 689.2(c).                                                                          :

            Your proposal contained verbatim and paraphrased text, as well as sever$ embedded   i
    references, copied fiom two source documents. By submitting a proposal to NSF that copied the
    ideas or words of another without adequate attniution, as described in the OIG investigative
                                                                                                 Page 2
         /I
    Repo?, you misrepresented someone else's work as your own. Your conduct uinquestionably
    constitutes plagiarism. I therefore conclude that your actions meet the definitiok of "research
    misconduct" set forth in NSF's reflations.                                       I1
                                                                                     1
                                                                                       /I
             Pursuant to NSF regulations, the Foundation must also determine whetFer to make a
    finding of misconduct based on a preponderance of the evidence. 45 CFR $689.2(c). After
    reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
          lr
    evidence, your plagiarism was committed knowingly and constituted a siigificdt departure fiom
     accepted practices of the relevant research community. I am, therefbre, issuing laI hding of

                                                                                       I
                                            L

    research misconduct against you.

             NSF's regulations establish three categories of actions (Group I, 11, and 111) that can be
    taken in response to a hding of misconduct. 45 CFR $ 689.3(a). Group I actdns include issuing
    a letter of reprimand; conditioning awards on prior approval of particular activitp fiom NSF;
    requ&ng that an institution or individual obtain special prior approval of particular activities fiom
    NSF; and requiring that an institutional representative certify as to the accuracy 1pf reports or
    certifications of compliance with particular requirements. 45 CFR $ 689.3(a)(l). Group I1
    actions include award suspension or restrictions on designated activities or expehditures; requiring
    special reviews of requests for h d i n g ; and requiring correction to the research'kecord. 45 CFR $
    689.3(a)(2). Group I11 actions include suspension or termination of awards; prdhiiitions on
I
    participation as NSF reviewers, advisors or consultants; and debarment or suspension fiom
    participation in NSF programs. 45 CFR $ 689.3(a)(3).
I

             In determining the severity of the sanction to impose for research rniscodduct, I have
    considered the seriousness of the misconduct, our determination that it was com$rdtted knowingly,
    as well as our determination that it was part of a pattern of plagiarism I have a v considered the
    fact that your misconduct had no impact on the research record, the fact that you displayed
    contrition for your actions, as well as other relevant circumstances. 45 CFR $ 689.3@).
           " After assessing the relevant facts and circumstances of this case, I am ta$ng the following
    actions against you:                                                                I

                                                                                        i
                                                                                       'I any proposal
                      Until July 3 1,2011, ybu must provide certifications to the OIG that
               (1)
                      you submit to NSF as a PI or co-PI does not contain plagiarized,{fa~ified,or
                      fabricated material;

               (2)    Until July 3 1,201 1, you must submit assurances from a
                      employer to the OIG that your submissions to NSF do not
                      hkified, or fabricated material; and

               (3)    You must certify to the OIG that you have completed a research kthics training
                      course on plagiarism by July 3 1,2010.
          lt




                                                                                        I
               All certifications and assurances should be submitted in writing to OIG, Associate

                                                                                        Ii
                                                                                             Page 3
Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, v i r g d a 22230.
                                                                                1;



      li
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR 4 689.10'1a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 & s o n Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day deriod, this
decision will become final.

      " For your information, we are attaching a copy of the applicable regulations. If you have

                                                                                 A
any questions about the foregoing, please call              Assistant General ~bunsel,at (703)
292-8060.




                                                     Cora B. Marrett
                                                     Acting Deputy Director



Enclosures
- Investigative Report
- ~~"c.F.R    . 689
             Part
    'National Science Foundation
    I




    i Office of Inspector General




                     Confidential
                Report of Investigation
               Case Number A-071200(63                                            II


                               31 March 2009                                      T
                                                                                  1
                                          is the propelty of the NSF 01G and n q l b e disclosed ou~side
This Confidential Rep011 ol' Investig<~t;on
     NSF only by 01G under he Freedom of Infonnation and Privacy Acts, 5 U.S.F. $9 552, 552a.
                                                                                  I
          I/

          I/
    C~NFI~~ENTXAL                                                                           C ~ N F ID   EAL ~
          I


                                             Executive Summarv

    Allegation:       Plagiarism.
    OIG Inquiry:      OIG identified 2 sources from which approximately 73 unique /ines and 23
                      embedded references were apparently copied into 1 declined NSF proposal. OIG
                      referred the matter to the PI's University.
,   University
                                                                                        l
    Investigation
    and Action:
                                                                                  1
                      The Investigation Committee's Report concluded, based on a preponderance of
                      the evidence, that the PI intentionally and knowingly committedl plagiarism in the
                                                                                     1
                      NSF proposal, which it deemed a significant departure from accepted practices.
                                                                                     I'
                      The Investigation Committee also determined the Subject's dissertation and an
                      article published by the Subject contained plagiarized text.      1
                      The Deciding Official imposed the following sanctions: 1) TheI Subject must
                      submit his work to University officials for plagiarisin review for'I/ 3 years; 2) The
                      Subject must complete a Responsible Conduct of Research cod-se; 3) The
                      Subject must notify the Research Integrity Officer at the ~ n i v e h iatt ~which he
                      wrote his dissertation and the journal editor of an article he wr$e that both


                                                                                        I1
                      contained plagiarism; and 4) The Subject must be made aware that any future
                      misconduct will result in dismissal' from the University.

    OIG Assessment:          OIG concurs with University assessment.
                                                                                     11
                                The Act: The Subject committed plagiarism in one proposal.
                                Intent: The Subject acted knowingly.
                                                                                     II
                                                                                        S
                                                                                        I


                                Standard of ProoT: A preponderance of evidence sbpports the
                                conclusion that the Subject committed plagiarism.
                                Significant Departure: The Subject's plagiarism represents a
                                                                                     'i
                                significant departure from accepted practices.
                                Pattern: The PI's dissertation and a journal article he authored also
                                contain plagiarism.
    OIG Recommends:
                                    Make a finding of research inisconduct against the Subject.
               I
                                    Send the Subject a letter of reprimand.
           /I                       Require certifications from the Subject for a period of 2 year.
                                    Require assurances froin the subject for a period of 2 year.


           '1
               I


           4
               I
                                    Require certification of completion of a course in research ethics
                                    within a year.
           i
           I1
           I/
           II
                                                    OIG's Inquirv
                                                                                      Yl
        The National Science Foundation (NSF) Office of Inspector General ( o h ) received an
allegation that an NSF proposal ( ~ r o ~ o s a written
                                                l')     by a PI' and two CO-PIS' cottained plagiarism.
                                                                                   II
Our analysis identified approximately 30 unique lines of continuous text and 7 embedded      references
from a journal article (Source A ) . ~
                                                                       ,
        OIG contacted the PI and Co-PIS about the allegation.' Each
naming the PI solely responsible for the annotated text.6

        In his response, the PI accepted responsibility stating, ". . . I want to
identified as copied was written solely by me, while the Co-PIS Dr. [ ] and

Background section, but with the deadline approaching, he LLcopied                    .I
anything about it."7 The PI explained the Proposal was his first NSF proposal. He was to write the
                                                                          some text. into the
Background part of [his] drafl proposal, intending to use the text as a guidance t&write [his] own."'
The text copied came from Source A and a second journal article the PI identifidb (Source B ) . ~
                                                                                     1
                                                                                      1
                  However, it turned out that I did not have the time to rewrite the I (
                  background in my own words if 1 wanted to catch the deadline. . 4
                                                                                     il'
                                                                                       '
                                                                                         Then I
                  have to decide whether just use Dr. [ 1's text or not submit the proposal. I
                  did not want to quit submission since I would have to wait for an8ther half
                  year. Also, the co-PIShad already put in a lot of efforts and I did 'not want
                  to tell them that I wanted to uit. I thought that would disappoint them. So
                                                                                      1:
                                                                                      r
                  I decided to use the text. . . 9. 0
                                                                                      1,
The PI said he then added citations to the two papers, but the "citations must have disappeared
accidentally,"" because, as one who is still learning the Cross-reference functioqdl of Micmsofl Word,

                                                                                      1
he "deleted all error messages to clean up\the document, without checking if [he] had totally lost any
important citation^."'^
                                                                                      i'
                                                                                      11
                  I certainly wouldn't do things like this in publications because it i's not             .
                  allowed to repeat so much text written by others, but I thought prgposals
                                                                                      1' 1
                  were not publications and the text was summary material rather than
                                                                                      {I




   Tab 3 contains our inquiry letters to the PI and Co-PIS.
   Tab 4 contains the PI and Co-PI'S individual responses to our inquiry letter.
   Tab 4, pg 3.
   Tab 4, pg 4.
   ~ a 4,b pg 15-53.
l o Tab 4, pg 4
II
    Tab 4, pg 4.
l 2 Tab 4, pg 4.
                                                                                             il
                                                                                             1
                        original results or ideas, so I regarded copying so much text as impi-oper
                        but I did not realize that it is not allowed."

   In conclusion, the PI wrote:

                                                                                             I
                        I am very sorry for making such a big mistake. This is a big lesson for me
                        at just the beginning of my career. These days I have been thinking about
                        this issue very seriously, and I realized that it happened due to my p l e s s
                        mind on scientific ethics and my eagerness for quick success in my early
                        career. . . . I feel very sorry and I will and should accept the
                                                                                             I
                                                                                               that I
                        deserve. l 4
                                                                                             I
          The Subject's response did not dispel the allegation because the Subject acknowledged
   having copied material into the Proposal.
                                                                                             1
          'OIG reviewed Source B and identified 43 lines of text and 16 embedded references without
   proper attribution." The following chart summarizes the total allegedly copied t{!t in the Proposal:
                                                                                                                           1




                                        Source
                                                      +
                                                          Proposal 1
                                                          (Declined)
                                                          30 lines
                                                                                             ,I
                                                                                             I


                                        A                 7 embedded references
                                                                                             I     I
                                                          43 lines                           I
                                        B                 16 embedded references             I!
                  I
                  i                     Total             73 lines;                          I*
                                        (Unique)          23 embedded references
                                                                                              I
                                                                                             '1'1
                        i                                                          d
   The allegedly copied material appeared within 3 sectionsI6of the Proposal's Bacl@mnd section.
                                                                                             .%
          We concluded there was sufficient evidence to proceed with an investigation, and referred
   the matter to the University.I7
                                                                                        1                                  \

                                                                                       1:i
                                                                                             II'



                                    Universitv Inauirv and Investieation

               consistent with Uni~versitypolicy," the Associate Vice President for Resgrch (AVPR)'~


                                                                                             I
   contacted the PI, who agreed to waive a University inquiry. The AVPR appointed an Investigation
   Committee (Committee).                                                                                              i

          The Committee examined documents NSF provided and documents they
   Proposal drafts); reviewed emails between the PI and co-PIS;interviewed the PI;                     posed written
   questions to the PI and C O - P I S . ~ ~

   l3  ~ a 4,b pg 4.
   l4  Tab 4, pg 6.                                                                                I
   15
       Tab 5 contains the re-annotated Proposal; Tab 6 contalns annotated Source B.
   l 6 Sections 3.1,3.2, and 3.3 (Tab 5).
   "             ~           a 7 containsb the Investigation Referral Letter.                '1'
   18
       Tab 8.
- 9 1
                                                                                             I
    20 Tab   9, 'pg4.
                                                                                             I     I
        The Committee sought our assistance in exainining for plagiarism additioqal documents2'
                                                                                                 I
the PI wrote." One published journal articlez3contained 26 lines and 6 embedded references
allegedly copied from 3 source^;^' the Subject's dissertationz5contained 32 lines and 6 embedded
references allegedly copied from 4 sources.26 w e provided the University with thk annotated
documents and sources.27                                                                         I
                                                                                                 11
         The Coininittee produced a Majority ~ e ~ o r ta,Minority
                                                               '~     ~ e ~ o r tand
                                                                                  , ' ~a Response to the
Minority Report (the ~ e ~ o r t s ) In
                                     . ' ~its Majority Report, the Committee determin2d "a
preponderance of the evidence proves that [the PI] committed plagiarism as definh by NSF7s
 regulation^,"^' and that he did so "intentionally and knowingly . . . by including dkxt from other
sources in an NSF proposal without proper attribution and . . . represent[ing] it ad'his own work.""
It stated "the plagiarism constituted a significant departure from accepted practice's of faculty at [ ]
University and the wider academic community."33 It also found a pattern of behavior based on "the
present'instance of plagiarism" and the "previous cases revealed in the NSF scan."34

      I
      I1n its Majority Report, the Committee "construed the question" bf "whether the plagiarism
was committed intentionally" as "did [the PI] intend to take each of the steps that constitute the
offense of plagiarism?"35 It found that "According to [the PI] himself, he knew that his actions
were iAproper and he made a deliberate decision to include the Copied Text in thk ~ r o ~ o s a l . " ' ~
The Committee found "no documentary evidence to confirm or disprove [the ~ 1 1 ' 4claim that
[Source A] was referenced and that that citation was subsequently and inadvertently deleted."37 The
Committee concluded the plagiarism "did not have a significant impact on the reskarch record,
                                                                                    I
research subjects or the public welfare," as the copied material constituted "background sections of
an unsuccessful, confidential proposal." 38                                        I
                                                                                   Ij
       In response to the ~ a j o r i t ~ ~ e one
                                              ~ o rCommittee
                                                    t,                             1 Report
                                                             member39wrote a Minority
because she "disagree[d] with the rest of the committee on some of the key concl?sions of the
                                                                                                 ~l
2'
                                                                                                 I
    We received 18 documents, whlch included 4 proposals, 1 dissertation, 8 journal articles, and 5 ~onferencepapers. Of
the 18 documents, 3 were NSF proposals we had already examined.
22
    The Committee lacked an efficient electronic means of plagiarism identification.
23 Tab 10, file named "Journal article.pdf." The article is from
                                                             b- (eht                                '
24 Tab 10, Sources AA, BB, and CC.
25 Tab 10, file named "dissertation.pdf." The Subject's dissertation was written) at
                                                                                  -eht
2?ab 10, Sources AA, BB, CC, and DD. We note the PI included identical text and references from Sources AA, BB,
and CC in the two documents in which OIG identified allegedly plagiarized text.
27 Tab 10, file named "Letter to U.pdf."
28 Tab 9, pg 2-12.
29 ~ a 9,b pg 13-18.
30 Tab 9,;pg. 19-21.
3 ' Tab 9;pg 8.
"   Tab 9,1Ipg 8.
33 Tab 9,Ilpg 8.
34 Tab 9,1tpg 8.
35
    Tab 9,1:pg8.
3"ab 9,l;pg 9.
37 Tab 9, pg 6. Regardless, "the extent of the verbatlm copy~ng"would have constituted p~aglarisAeven had citations
                                                                                                    I
been included as the P1 claimed (Tab 9, pg 9).
                                                                                                    I
    Tab 9, pg 9.                                                                                    I
                                                                                                 41
    investigation," and "[had] serious concerns about the integrity and fairness of theltnvestigation
    process."40 Specifically, she argues the plagiarism was not committed intentionally4' because the PI
    did not have a clear understanding of plagiarism, had never "taken a technical d i n g course in
    English in the US,"" and the PI "came to the US in 2002 from a different educatibnal and cultural
    background."" "Therefore," she wrote, "it is my judgment that he never intend2h to deceive or
                                                                                       Q
    misrepresent himself."44 The member criticized the investigative process as being prosecution
    oriented, lacking the safeguards of the j k y trial system, and insufficiently
    encouraging the Subject to seek legal counsel.45

           In their Response to the Minority ~ e ~ o rother
                                                        t , ~Committee
                                                              ~                    EI
                                                                         members reiterated their
                                                                                                             '

   conclusion regarding the PI'S level bfintent. They also argued that "[the PI] himblf never
   contended that his cultural background played any role in his actions."' with retard to the
   investigative process, the other members noted the administrative, non-adversarid nature of the
   proceedings, the extensive meeting and discussion history of the Committee and !Is thorough
                                                                                    II
   consideration of the dissenting member's views, and the instances in which the Subject had been
   advised of his right to consult others.48                                                     ''i1,
                                         Subject's Response to Investi~ationReports
                                                                                                 1
                                                                                                 I/(
                 The University provided the Subject with the Reports. The PI again expldned:
                                                                                                  I1
                             At the time I wrote the proposal, I did intend to take each of the st&s, and
                                                                                                  1b
                             I was aware that I was copying text written by others. However, I was     not
                                                                                                   11'
                             aware that what I had done is plagiarism, and I only viewed my act as a
                             compromise of my best practice."49
                                                                                                 'I
                                                                                                 I
    He attributes the misunderstanding to his educational history and cultural background.

                             When I was a master student at [ lS0University, many students copied
                             introductory text from thesis of graduated students into their own thesis,


                                                                                                 1
                             and nobody regarded that as plagiarism.51
                                                                                                       '
                                                    Universitv Adjudication                       I
                                                                                                 'I
         The Deciding Official ( ~ 0 ) reviewed
                                         ' ~      the Reports and the PI'S respons
   completely with the assessment of the investigation committee that the plagiaris
   40
      Tab 9, pg 13.
   4' Tab 9, pg 14.
   42
      Tab 9; pg 15.
   43
      T a b 9 , p g 17.
   44 Tab 9, pg 16.
   45 Tab 9, pg 16-18.
   4 6 ~ a9,b pg 19-21.
   47 Tab 9, pg 20.
   48 Tab 9, pg 20-21.
   49
      Tab 11, pg 2.
- 0 51
    5
         Tab l l , p g 3 .
   52
                                                                                         1
                                                                                         I1
    committed is serious in that it calls to question your understanding of, and ability to interpret the
                                                                                        Ill
    literature in the context of your own original ideas."13 The DO imposed the following sanctions:"
                                                                                         Ill


                    The PI must submit his work for plagiarism review for 3 years; 1,
                                                                                         1
                                         j
                                         .




                    The PI must take a course in Responsible Conduct of Research;
                    The PI must inform the Research Integrity Officer at the universib at which he

                                                                                         I
                    wrote his dissertationS5and the editor of the journal in which his dkicle appeared that
                    both contained plagiarized material;56and
                    The Subject was informed that any future misconduct will result ih dismissal from
                    the University.

                                             OIG's Assessment
                                                                                         P
            The University provided OIG with the Reports and atta~hmknts.~~              l
                                                                               OIG r Liewed the
    Re$orts and concludes the University followed reasonable procedures and p-oduted an accurate and
    complete body of evidence addressing the allegation. OIG therefore accepts
    conclusions based on the Majority Report and its evidentiary record in lieu of           our own
    investigation.

           We informed the PI we had received the Reports and
    additional comment.58 The PI chose not to respond.

            A finding of research misconduct by NSF requires (1) there be
    accepted practices of the relevant research community, (2) the research
    intentionally, or knowingly, or recklessly, and. (3) the allegation be proved by a
    the evidence.59

                                                  The Act
                                                                                         I
           The PI plagiarized 73 unique lines and 23 embedded references from 2 sources within 1
    declined NSF proposal. The PI acknowledged he copied the material, stating he t41b e d the material
    verbatim into the Proposal but did not have and/or take the time to attribute the i$aterial due to,
/
    among other reasons, the impending deadline.                                     1
                                                                                    i    I

            OIG concurs with the Committee that the PI significantly departed from the accepted
    standards of the research community in presenting almost all of the Pioposal's ~ackgroundsection
    as his own work rather than as text written by others. Further, his inclusion of 231'I embedded
                                                                                       /(I

                                                                                         p,
    references misrepresented his own effort and underlying body of knowledge, therieby      presenting
    reviewers with an incorrect measure of his expertise within his discipline.
                                                                                         /I




    57
      Tabs 9 and 11.
      Tab 12.
    59 45 C.F.R. $689.2(c).
                                                     Intent
             OIG concludes the PI acted knowingly. The PI acknowledged he made a fC )nscious decision
     to proceed in this manner rather than upset his Co-PIS and not submit the Proposal. In doing so, he
                                                                                      9
     knowingly committed an act that put his Co-PIS' reputations as well as his own rep'utation at risk.


               .
                                          Standard o fProof
            OIG concurs with the Committee that the Subject's actions and intent we proven based on
     a preponderance of the evidence.

            'OIG concludes the Subject, by a preponderance of the evidence, knowini          plagiarized,
     thereby committing an act of research m i ~ c o n d u c t . ~ ~
                                                                                        'I
                                              OIG's Recommended Disposition
                                                                                        I,

            When deciding what appropriate action to take upon a finding of misconc :t, NSF must
     consider:
                  (1) How serious the misconduct was; (2) The degree to which the
                  misconduct was knowing, intentional, or reckless; (3) Whether it B
                  an isolated event or part of a pattern; (4) Whether it had a signific t
                  impact on the research record, research subjects, other researcher:
                  institutions or the public welfare; and (5) Other relevant
                          circumstance^.^ '
                                                                                        1:
                                                                                        I


                                                                                        &
                                                   Seriousness                           /I .
             The PI'S actions are a violation of the standards of scholarship and of the ndamental tenets
                                                                                        Ili
     of research ethics. The extent of the plagiarism - approximately 73 unique lines an     ~d23 embedded
                                                                                         li
     references within 1 declined NSF proposal fiom 2 sources - is itself serious.
                                                                                        I!



                                     Degree to which Action was Knowing
                                                                                        I/
                                                                                       1;
            'The act of plagiarism is generally an act done knowingly. In submitting 1theI NSF proposal,
     the Subject acknowledged he knew he copied text and embedded references witkLOU   !1
                                                                                          ~tattribution. ,He
     explained that he chose to do so to ensure timely submission of the Proposal.

             Additionally, although the Subject received his bachelor's degree in anotl - country,62he
     received his master's degree and Ph.D. in the u . s . ~
                                                           All~of the publications listel )n the PI'S
     Biographical Sketch were written for English language publications, many of wk h were US.-
     based publications.64As such, it is reasonable to expect that he is knowledgeable I correct citation
     practice and consciously chose to ignore these standards.

                                              Pattern
            Additional plagiarism was identified in the PI'S dissertation and a journal article. OIG
     therefore concludes the PI exhibited a pattern of plagiarism.

    60
          45 C.F.R. part 689.
    " 45     C.F.R. 689.3(b).
    62    0
' - (36                             .

    64    ~ a 13.
               b
                                The Subiect's Response to Draft Investigation R e ~ o r t
                                                                                        I/
            OIG provided the Sub'ect with a copy of our draft report and attachments, 'and afforded him
    the opportunity to comment.6' In his response,b6the Subject corrected our assesdent of his
    educational experience.67 Specifically, he said, while he did receive a master's de!*ee in the U.S.,
    that degree "was a dual degree and was a non-thesis degree." It was during his fi&t master's degree
                                                                                        1
    from a non-U.S. institution where "all of my practices and scientific writing started.", He added:
                                                                                               I'
                                                                                              Ill



                        I did not receive a formal training on research ethics at [ lb8as a master
                        student, nor did 1 at the University [ lL9as a Ph.D. student. For the&
                                                                                               Y
                        reasons, my knowledge of plagiarism was very poor at the time I ?rote the
                        NSF proposal. As I stated a few times in my previous responses to fhe [ ]I"
                        Investigation Committee, I did know that copying introductory text was
                        not the best practice, but I did not know that kind of act is plagiarism.
                                                                                                  I

           i:~fterassessing the Subject's response to our drafi report, our conclusions and

                                                                                                                .
    recoinmendations remain identical to those of the drafi report. While we acknowllbdgethe Subject
    did begin his academic journey at a non-U.S. institution, we maintain the Subject knew he copied
    material without attribution, which he himself said, he chose to do to ensure timely submission of
    the ~robosal.Similarly, we maintain that since all of the publications listed on the PI'S Biographical
    Sketch were written for English language publications, many of which were U.S.-based
    publications, it is reasonable to expect that he is knowledgeable in correct citation practice and
    consciously chose to ignore these standards.


\
                                                        Recommendation
                                                                                              1,


                                                                                              I
    Based on the evidence, OIG recommends that NSF:
                                                                 P

                                                                                              'I
                        send a letter of reprimand to the Subject informing him that NSF hks made a finding

                                                                                              i
                        of research misc~nduct;~'                                             ,



                        require the Subject to certify to OIG's Associate Inspector ~ e n e r a lfor
                                                                                                  ' Investigations
                                                                                               J
                        (AIGI) that proposals or reports he submits to NSF do not contain plagiarized
                        material for 2 years from the date of the research misconduct findir!ig;72
                                                                                         ,


                        require that the Subject submit asskances by a responsible official !of his employer
                        to AIGI, OIG, that any proposals or reports submitted by the subject to NSF do not



    " Tab 14.  II

    " Tab    15.




    71
         A letter of reprimand is a Group 1 action (45 C.F.R. $689.3(a)(l)(i)).
    72   Certification by an individual is authorized in 45 C.F.R. $689.3(c).
                   contain plagiarized nlaterial for 2 years from the date of the redearch misconduct
                   fii~ding;'~
                             and
          I1
          1;                                                                                      I

                   Require ce~tificationof colnpletion of a course in research ethiLs be submitted to
                   AIGl within a year of the research misconduct finding.                         '1




73
                  for
     lieq~iii-e~nent    assui-antes   is a G I . ~ L I1Iaction
                                                        >      (45 C.1-..R. $680.3(a)(l)(iii)).
